National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001




                                      December 11, 2007

TO:            Chief Financial Officer
               Director, Facilities Engineering and Real Property Division

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on NASA’s Accounting for Capitalized Real Property
               Designated as Inactive (Report No. IG-08-005; Assignment
               No. S-08-002-00)


NASA has many accounting process improvements planned for fiscal year 2008. With
regard to prospective changes to guidance, the Office of Inspector General (OIG)
reviewed certain accounting procedures relating to NASA’s treatment of property, plant,
and equipment. Specifically, the OIG conducted a review to determine whether NASA is
properly accounting for real property designated as inactive in accordance with
applicable accounting standards. (See Enclosure 1 for details on the review’s scope and
methodology.)

Executive Summary
We found that NASA guidance improperly directs that the capitalized cost of temporarily
inactive real property, be removed from its general ledger. As a result, NASA real
property with a capitalized value of approximately $247 million, which has been
temporarily removed from service, was also removed from the general ledger. We
estimated the book value of these properties to be approximately $24.5 million as of
September 30, 2007.

Our October 26, 2007, draft of this memorandum recommended that the Chief Financial
Officer (CFO) and the Director, Facilities Engineering and Real Property Division
(FERPD), revise NASA’s applicable policies and procedures to comply with Federal
guidance for accounting for real property designated as inactive. We also recommended
that the CFO analyze NASA’s property records and record adjustments that should be
made to address the improper removal of certain inactive real property from the
accounting records.

The Deputy CFO’s comments, with concurrence from the Director, FERPD, on the draft
of this memorandum are responsive (see Enclosure 3). We will close the
recommendations upon completion and verification of management’s corrective actions.
                                                                                                 2



Background
Applicable Accounting Standards. The Statement of Federal Financial Accounting
Standards (SFFAS) No. 6, “Accounting for Property, Plant, and Equipment,” June 1996,
issued by the Federal Accounting Standards Advisory Board (FASAB), states in
paragraph 38 that “in the period of disposal, retirement, or removal from service, general
PP&E [property, plant, and equipment] shall be removed from the asset accounts along
with associated accumulated depreciation/amortization. Any difference between the
book value of the PP&E and the amounts realized shall be recognized as a gain or loss in
the period that the general PP&E is disposed of, retired, or removed from service.”
Further, paragraph 39 states that “general PP&E shall be removed from general PP&E
accounts along with associated accumulated depreciation/amortization, if prior to
disposal, retirement, or removal from service, it no longer provides service in the
operations of the entity. This could either be because it has suffered damage, becomes
obsolete in advance of expectations or is identified as excess.”

NASA Inactive Real Property Accounting Process. NASA maintains a NASA-wide
data system for real property referred to as the Real Property Inventory (RPI). RPI was
established to provide an easy-to-use, automated method for maintaining and reporting
real property data. According to NASA Procedural Requirements (NPR) 8800.15A,
“Real Estate Management Program Implementation Manual,” September 1998,
section 3.9, “Facility Activity Policy,” paragraph 3.9.2, an inactive facility 1 is “any
facility that has no specific and present, or near-term, program or institutional
requirement. The inactive facility may be placed in a ‘Standby,’ ‘Mothballed,’ or
‘Abandoned’ status” (see Enclosure 2 for definitions). Facilities that are in mothballed or
standby status are temporarily removed from service with the expectation that such
facilities will be returned to service. The status is reported in RPI and updated as
appropriate.

NASA’s Financial Management Requirements (FMR), Volume 6, Chapter 4, “Property,
Plant and Equipment,” November 2006, directs the removal of general PP&E in an
inactive status from general PP&E accounts. As directed by section 0405, “Policies and
Procedures,” subsection 040510, “PP&E Not In Use,” and section 0406, “NASA Held
Real Property,” subsection 040604, “Property Not In Use,” the capitalized cost of real
property no longer being used for NASA purposes, including property reclassified as
standby, mothballed, or abandoned, is to be removed from the accounting records.
Further, the guidance directs that if NASA returns such property to active use, it will be
returned to capitalized status at the capitalized value in effect when it was removed, plus
the value of any modifications of $100,000 or more made to return it to active status.
Subsections 040510 and 040604 state that this accounting treatment is in accordance with
SFFAS No. 6.




1
    According to NPR 8800.15A, paragraph 3.3.1, “facility” is synonymous with “real property.”
                                                                                                         3



Improper Guidance and Accounting for NASA’s Inactive Real Property
The Office of the CFO (OCFO) does not account for NASA’s inactive capitalized real
property, specifically property in standby or mothballed status, in accordance with
applicable accounting standards. Because the reasons for classifying real property as
inactive are varied, NASA chose to identify inactive status in a number of ways (i.e.,
standby, mothballed, and abandoned). Based on NASA’s definition of each of these
categories, removal of real property classified as standby and mothballed is temporary,
while removal of abandoned real property is permanent. Yet the accounting treatment of
these classifications in FMR Volume 6, Chapter 4, does not differentiate between real
property removed on a temporary basis and real property removed on a permanent basis.
However, SFFAS No. 6 implies, by emphasizing that the property “has suffered damage,
becomes obsolete in advance of expectations or is identified as excess,” that only
property removed on a permanent basis is to be removed from the general ledger.

Guidance documents issued by at least two other Federal agencies reiterate that the
accounting treatment is different when assets are removed from service depending on
whether the removal is considered temporary or permanent. Below are excerpts from
guidance issued by the Department of Defense (DoD) and the Department of Commerce,
National Oceanic and Atmospheric Administration (NOAA), respectively.
           General PP&E assets that have been temporarily removed from service/use with the
           expectation that such assets eventually will be returned to service shall continue to be
           depreciated during periods of non-use…Depreciation shall cease on General PP&E
           assets awaiting disposal that are damaged, obsolete, or excess (assets no longer
           providing the intended service to the entity’s operations) or are retired before their
           intended disposal date based on useful life. 2

           Capitalized property will continue to depreciate until it is taken out of service with the
           intention that it will never be returned to service. 3

Additionally, the FMR includes a provision detailing the accounting treatment when real
property is returned to active status. SFFAS No. 6 does not address such a scenario
because PP&E permanently removed from service would not be reactivated.

We reviewed Capitalization Reconciliation Reports generated from RPI as of August 27,
2007, for real property at each NASA facility. We found that of 78 real property items
with an acquisition cost of at least $100,000 each (i.e., the capitalization threshold) 59
have a status of mothballed and 19 have a status of standby. According to SFFAS No. 6,
these property items should not have been removed from the general ledger, as their
removal from service is considered temporary. The total acquisition cost of these real

2
    U.S. Department of Defense. Financial Management Regulation, Volume 4, (July 2006). Chapter 6,
    Section 060205, paragraph L. Posted July 2006. Accessed October 2007. Available at
    www.defenselink mil/comptroller/fmr/04/04 06.pdf.
3
    National Oceanic and Atmospheric Administration. Personal Property Policy #1: Capitalized Personal
    Property Policy. Last modified March 2007. Accessed October 2007. Available at
    www.pps noaa.gov/New menu/policy1.htm.
                                                                                           4



property items is approximately $247 million. Of the 78 properties, 19 were not fully
depreciated by September 30, 2007. Using the straight-line depreciation method, we
estimated the net book value of the 19 properties to be $24.5 million as of September 30,
2007, with an annual depreciation expense of approximately $4.3 million.

The Capitalization Reconciliation Reports only reflect the cumulative total of the
acquisition cost and the initial date that the property was placed in service. They do not
provide details concerning the cost of the initial property acquisition, cost of subsequent
improvements, if any, or the year that such improvements were made. As such, we were
unable to determine the exact number of properties not fully depreciated and the
corresponding net book value and depreciation expense.

Our research and analysis was limited to real property. The Federal accounting standards
do not differentiate, however, between personal property and real property, so the
accounting treatment would be the same for both.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Recommendation 1.a. We recommended that the NASA Chief Financial Officer and the
Director, Facilities Engineering and Real Property Division, review and revise the
relevant FMR and NPR sections to comply with Federal accounting standards related to
temporarily and permanently inactive real property and collaborate to ensure that the
terminology used by each office is consistent.

   Management’s Response. Comments provided by the Deputy CFO, with
   concurrence from the Director, FERPD, concurred with the recommendation.
   The Deputy CFO stated that OCFO and FERPD are in the process of revising
   the applicable policy and procedural documents and expected the policy updates
   to be completed by the end of the third quarter of FY 2008.

   Evaluation of Management’s Response. The Deputy CFO’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion
   and verification of management’s corrective action.

Recommendation 1.b. We recommended that the NASA Chief Financial Officer and
the Director, Facilities Engineering and Real Property Division, provide training on the
revised (based on the above recommendation) FMR and NPR to OCFO and FERPD
personnel at Headquarters and Centers that would be affected by the revisions.

   Management’s Response. The Deputy CFO concurred, stating that revised guidance
   will be discussed at annual training.

   Evaluation of Management’s Response. The Deputy CFO’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion
   and verification of management’s corrective action.
                                                                                          5



Recommendation 2.a. We recommended that the NASA Chief Financial Officer
analyze NASA’s real property currently classified as standby and mothballed. The
analysis should identify all such properties, as well as related improvements, with costs
equal to or in excess of the capitalization threshold, and the useful life has not expired.
Based on the results, an adjustment should be recorded in the accounting records to
address the improper removal of certain inactive real property from the accounting
records and determine whether such an adjustment, or portion thereof, should be recorded
as a prior period adjustment.

   Management’s Response. The Deputy CFO concurred, stating that an analysis of
   capital real property classified as standby and mothballed will be performed and an
   adjustment, if necessary, will be made. The analysis is expected to be completed by
   the end of the second quarter of FY 2008.

   Evaluation of Management’s Response. The Deputy CFO’s comments are
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 2.b. We recommended that the NASA Chief Financial Officer
research and analyze NASA’s accounting treatment of inactive personal property to
determine if it is in accordance with Federal accounting standards. If the research and
analysis discloses that the accounting treatment is not in accordance with Federal
accounting standards, OCFO should develop and implement recommendations for
personal property similar to these recommendations for real property.

   Management’s Response. The Deputy CFO concurred, stating that additional
   research and analysis will be performed on inactive personal property.

   Evaluation of Management’s Response. The Deputy CFO’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion
   and verification of management’s corrective action.

We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Mr. Mark Jenson, Financial Statement Audits
Director, at 202-358-0629 or me at 202-358-2572.


   signed
Evelyn R. Klemstine

3 Enclosures

cc:
Assistant Administrator for Infrastructure and Administration
Deputy Chief Financial Officer
Executive Director, Ernst & Young LLP
                             Scope and Methodology

We performed this review from September through October 2007. However, the review
was limited in that we did not follow generally accepted government auditing standards.
We also did not review related internal controls. The purpose of the review was to
determine whether NASA is properly accounting for real property designated as inactive
in accordance with applicable accounting standards. The scope of the OIG review was
limited to determining applicable criteria, reviewing NASA policies and procedures, and
conducting a cursory review of records for inactive property. However, we believe that
the evidence obtained during this limited review nonetheless provides a reasonable basis
for our findings and conclusions.

We obtained and examined Capitalization Reconciliation Reports generated by the RPI
for NASA sites; the following NASA and regulatory guidance: FMR Volume 6,
NPR 8800.15A, and SFFAS No. 6; and the following guidance of DoD and NOAA: DoD
Financial Management Regulation, Volume 4, Chapter 6 and NOAA Personal Property
Policy #1. We interviewed OCFO personnel at Headquarters to clarify our understanding
of the accounting treatment of inactive property by NASA.

Computer-Processed Data. Although we based our conclusions on evidence gathered
from computer-processed data from the RPI and spreadsheets, we believe that evidence
to be reliable based on our confirmation of specific instances with appropriate
Headquarters personnel.

Prior Coverage. We did not identify any reports issued during the last 5 years that
specifically addressed NASA’s accounting for inactive real property.




                                                                             Enclosure 1
                                                                             Page 1 of 1
                            Applicable NASA Guidance

NPR 8800.15A, “Real Estate Management Program Implementation Manual,” September
1998, section 3.9, “Facility Activity Policy,” defines standby, mothballed, and
abandoned, which are as follows.

   •   Standby – “a facility that is temporarily not in use and appropriate maintenance
       measures have been taken to maintain its vital or essential operating systems in a
       state of readiness or availability for future use. Selective life cycle cost effective
       facilities maintenance and repair is required. Total time to deactivate and then to
       reactivate the facility, including the standby period, is expected to be less than
       12 months.” Further, “utility system and collateral equipment have been secured
       as may be appropriate and equipment is cycled in operation on a planned basis to
       prevent deterioration.” Also, “facility interior has appropriate environmental
       control to prevent deterioration.”

   •   Mothballed – “a condition where a facility has been deactivated and appropriate
       maintenance measures have been taken to prevent deterioration of its vital or
       essential systems or placed in protective storage. Higher first year costs would be
       expected because of preparations for mothballing, but future annual costs should
       be significantly lower due to reduced maintenance and repair requirements. Total
       time to deactivate and then to reactivate the facility, including the mothballed
       period, is expected to exceed 12 months.” Further, “utility systems and collateral
       equipment have been shut down and properly prepared for long term inactivation
       without significant deterioration. Selected systems should be kept in operation
       and inspected, such as cathodic protection systems” and “facility interior has
       appropriate environmental control to prevent significant deterioration.”

   •   Abandoned – “a condition in which a facility has been ‘walked away from’ or
       ceasing to maintain any part of the property.” There are no plans for future
       reactivation. Plans have been made to demolish or declare the facility excess at
       the earliest practical date. Further, “all utilities have been secured and
       disconnected at the first service equipment location outside the facility” and
       “facility has been secured to prevent the pilfering of economically salvageable
       materials” and “until the facility is demolished, it may be necessary to maintain
       the exterior of the facility in a minimally aesthetically acceptable condition” and
       “all personal property and controlled equipment have been removed and
       accounted for.”




                                                                                 Enclosure 2
                                                                                 Page 1 of 1
Management’s Comments




                        Enclosure 3
                        Page 1 of 3
Enclosure 3
Page 2 of 3
Enclosure 3
Page 3 of 3
